Case No. 20-608

IN THE SUPREME COURT
OF THE UNITED STATES OF AMERICA
TATYANA E. DREVALEVA,
Petitioner,
VS.

DEPARTMENT OF INDUSTRIAL RELATIONS OF THE STATE OF
CALIFORNIA
Respondent

Alameda County Superior Court, case No. RG17881790
Court of Appeal for the First District, Division Four
Appeal No. A156248
The California Supreme Court, Petition for Review S260355 - denied
The California Supreme Court, Petition for Writ of Mandate S260491 - denied

CERTIFICATE, Rules of the U.S. Supreme Court, Rule 44(2.)
Tatyana E. Drevaleva, Petitioner Pro Se
3015 Clement St., Apt. 204, San Francisco, CA, 94121
415-806-9864; tdrevaleva@gmail .com
Page 1 of 3

I am certifying that this Petition for Rehearing is restricted to the grounds
specified in the Rules of the U.S. Supreme Court, Rule 44(2) and that this Petition for
Rehearing is presented in good faith and not for delay.
The grounds for this Petition for Rehearing are limited to intervening
circumstances of a substantial or controlling effect or to other substantial grounds not
previously presented.
The facts that I discovered after the Superior Court of Alameda County dismissed
my Complaint No. Rgl 7881790 Drevaleva v. Department ofIndustrial Relations clearly
demonstrated that all DIR’s allegations that the DIR listed during the litigation of my
lawsuit No RG17881790 were not confirmed by the Responses of the Narayan
Travelstead Professional Law Corporation to my Discovery requests.
Because the DIR’s anti-SLAPP Motion was based on a fabricated piece of
evidence (the alleged September 04, 2013 email of Ms. Littlepage), the DIR is not
entitled to the qualified or absolute immunity. The DIR’s anti-SLAPP Motion shall be
denied. The DIR’s allegations of the immunity under the various provisions of the
California Government Code shall be denied. I am entitled to an evidentiary name
clearing hearing that was never done for me. The DIR’s Demurrer shall be overruled.
Pursuant to Government Code Section 11370(a), the DIR has a mandatory obligation to
transfer my both retaliation and unlawful termination claim and my wage claim to the
Office of the Administrative Hearings of the California Department of General Services.

Page 2 of 3

My lawsuit No. RG17881790 shall be stayed at the Superior Court of Alameda
County and shall be coordinated with my Federal lawsuit No. 3:16-cv-07414-LB
Drevaleva v. 1) Alameda Health System, 2) Department ofIndustrial Relations.
I declare under the penalty of perjury and under the Federal laws and under the
laws of the State of California that all foregoing is true and correct. Executed at San
Francisco, CA on January 07, 2020.

Respectfully submitted,

s/ Tatyana Drevaleva
Petitioner-Appellant Pro Se
3015 Clement St., Apt. 204, San Francisco, CA, 94121
415-806-9864; tdrevaleva@,gmail.com
Date: January 07, 2020

Page 3 of 3

Case No. 20-608

IN THE SUPREME COURT
OF THE UNITED STATES OF AMERICA
TATYANA E. DREVALEVA,
Petitioner,
vs.

DEPARTMENT OF INDUSTRIAL RELATIONS OF THE STATE OF
CALIFORNIA
Respondent

Alameda County Superior Court, case No. RG17881790
Court of Appeal for the First District, Division Four
Appeal No. A156248
The California Supreme Court, Petition for Review S260355 - denied
The California Supreme Court, Petition for Writ of Mandate S260491 - denied

PETITION FOR REHEARING
Tatyana E. Drevaleva, Petitioner Pro Se
3015 Clement St., Apt. 204, San Francisco, CA, 94121
415-806-9864; tdrevaleva@,gmail.com
Page 1 of 16

Statement of Facts.
On April 01, 2013,1 was hired by Alameda Health System as a Part Time Monitor
Technician observing cardiac monitors. Prior to being hired, I was fully certified, I
possessed a few years of experience as a Monitor Technician and as an EKG Technician,
I possessed good Letters of Reference from my pervious employers (Exhibit 1), and I
possessed a good Performance Evaluation from the San Francisco VAMC where my
performance was rated as “outstanding and exceptional” (Exhibit 2.)
On August 21, 2013, Alameda Health System gave me a good Letter of Reference
(Exhibit 3.) On August 25, 2013,1 spoke to my former Director Mr. Gilbert Harding, Jr.,
and I asked him questions about unpaid both overtime and shift differentials, missed 10
and 15 minute breaks, the denial of my affiliation to the Union, and I asked to transfer me
to a full time job because I was actually working full time. Mr. Harding promised to think
about it but nothing happened.
On September 05, 2013, I emailed my letter to Mr. Harding (Exhibit 4), and I
asked the same questions about unpaid both overtime and shift differentials, the denial of
my affiliation to the Union, missed breaks, and I asked to transfer me to a full time job
because I was actually working full time. I asked Mr. Harding to answer my questions in
writing. In two days, on September 07, 2013, I was fired in twenty minutes after the
beginning of my shift. The September 07, 2013 Termination Letter (Exhibit 5) said, "This
action is taken due to the discrepancy between acceptable employment standards and
those you exhibited during your employment with us.” The Termination Letter itself
Page 2 of 16

i

didn’t explain the nature of these alleged “discrepancies.” On September 07, 2013, I
asked both Mr. Harding and Labor Analyst Mr. Adam Cole to give me examples of these
alleged “discrepancies.” Mr. Harding’s exact answer was, “We are not talking about it
right now.”
After being fired from AHS, I obtained a Personnel Record where the reason of
the termination of my employment was listed as “Probationary Release” (Exhibit 6.)
After being fired from AHS, I was receiving unemployment insurance benefits (Exhibit 7
which is a document from the Employment Development Department.) Please, notice
that AHS stated to the EDD that the reason of the termination of my employment was
“Probationary Release” (Exhibit 8.) In 2017, I obtained a full time job offer at the
Raymond G. Murphy VAMC in Albuquerque, NM (Exhibit 9.) It would have never
happened if I were fired for medical negligence towards the patient.
After being fired from AHS, my professional certificates remained valid, and AHS
never reported me to the appropriate State Board.
On September 16, 2013,1 submitted a retaliation and unlawful termination claim
and a wage claim to the Department of Industrial Relations (DIR), the Division of Labor
Standards Enforcement (DLSE.) Deputy of the Labor Commissioner Mr. Bobit Santos
was assigned to investigate my wage claim. Deputy of the Labor Commissioner Ms.
Catherine Daly was assigned to investigate my retaliation and unlawful termination
claim.

Page 3 of 16

i

DIR never conducted any investigative hearing. On January 07, 2014, DIR denied
my wage claim asserting that “The Division does not have jurisdiction over claims for
overtime, rest period premiums, differential pay, or waiting time penalties for county
employees. This case has been closed for lack of jurisdiction. The plaintiff retains the
right to pursue their claim through any other appropriate forum” (Exhibit 10.)
On June 16, 2014,1 received a letter from Deputy of the Labor Commissioner Ms.
Catherine Daly (Exhibit 11) that stated, “AHS admitted firing you but blamed its decision
on your failure to meet “acceptable employment standards.” Specifically, your
negligence allegedly seriously harmed

patient. Moreover, it asserted you already

knew you faced termination when you emailed your September 5, 2013 complaints.
Therefore your emailed communication could not have triggered the termination. Finally,
it explained why all your complaints lacked merit.”
The June 16, 2014 letter of Ms. Daly didn’t explain the nature of the alleged
“medical negligence” towards the patient. In her letter, Ms. Daly didn’t specify what
patient s/he was and what exactly wrong I did with the patient. I suggested it was Patient
Mr. X. However, it was only my suggestion, and I didn’t know whether Ms. Daly meant
this patient or she meant anybody else.
On June 18, 2014, I sent a letter to Ms. Daly (Exhibit 12) where I explained the
incident that occurred with Patient Mr. X. in July 2013. I explained that I was observing
Mr. X.’s Electrocardiogram. I saw changes on the patient’s EKG. I reported these
changes to the patient’s Nurse, to the Charge Nurse, and to Medical Doctor Mr. Sina
Page 4 of 16

Rachmani who agreed with my EKG interpretation. Mr. Rachmani’s exact words were, “I
agree with you.” In the morning after my night shift, I reported the changes on the
patient’s EKG to my co-worker Ms. Doniea Lawson and to Director of Step Down Unit
Mr. Gilbert Harding.
Unfortunately, Patient Ms. X. passed away. After the patient’s death, I reported
the incident with the patent to the Committee of Alameda health System three times at
three Root Cause Analysis (RCA) meetings. The Committee that was comprised of many
Medical Doctors and Registered Nurses agreed with me. After the patient’s death, AHS
allowed me to continue performing my duties as a Monitor Technician, never revoked my
professional certificates, never reported me to the appropriate State Board, and gave me a
good Letter of Reference (Exhibit 3.) I was not subjected to a progressive discipline. I
didn’t have a verbal warning, I was not written up, and nobody told me that I had
committed medical negligence towards the patient.
After I sent my June 18, 2014 letter to Ms. Daly, I didn’t hear from her for two
years. In August 2016, I contacted with Daly and requested to give me the time frame
when she will finish investigating my retaliation and unlawful termination claim. I also
requested to meet with Daly in person, and I requested to conduct an evidentiary hearing.
Daly refused to meet with me, and Daly refused to conduct an evidentiary hearing. Daly
informed me that she would deny my retaliation and unlawful termination claim because
the evidence established that I had been fired for committing medical negligence towards

Page 5 of 16

the patient. At my numerous requests, Daly refused to provide me with the explanations
and evidence regarding the medical negligence towards the patient.
On December 29, 2016, DIR issued a Determination Letter (Exhibit 13) where
DIR stated that “Additionally, your probationary status meant Alameda health could
terminate you at any time and without due process. Your involvement with medical
negligence, whether peripheral or not, also gave Alameda Health a compelling reason to
terminate you.”
On November 07, 2017, I filed a lawsuit No. RG17881790 Drevaleva v.
Department of Industrial Relations. On March 09, 2018, DIR served me with the antiSLAPP Motion. With this Motion, DIR attached a Declaration of Deputy of the Labor
Commissioner Ms. Catherine Daly (Exhibit 14) where she stated,
“(9) I interviewed Gilbert Harding, Plaintiff s former supervisor, and Adam Cole,
a labor analyst for Alameda Health System on December 2, 2013.
(10) Harding and Cole admitted that Alameda Health System terminated
Plaintiffs employment on September 7, 2013, but maintained it was because Plaintiff
failed to meet acceptable employment standards.
(11) Specifically, Harding and Cole claimed that Plaintiffs alleged negligence
seriously harmed a patient.

Page 6 of 16

(12) Harding and Cole claimed that Dana Littlepage, Alameda Health System’s
Assistant Director of Nursing, informed Human Resources by email on September 4,
2013 that a decision was made to terminate Plaintiffs employment.
(13) Littlepage’s September 4, 2013 email predated Plaintiffs alleged protected
activity on September 5, 2013
(14) Cole gave me a copy of Littlepage’s September 4, 2013 email on December
6, 2013 (A true and correct copy of that correspondence is attached hereto as Exhibit B)
(15) Harding and Cole alleged that Plaintiff already knew her employment would
be terminated when Plaintiff authored the September 5, 2013 letter about wage violations
and unsafe working conditions.”
During the litigation of my lawsuit No. RG17881790, DIR presented two versions
of the alleged September 04, 2013 email of Ms. Littlepage (Exhibits 15 and 16.) The
plain language of both versions of the September 04, 2013 email of Littlepage said, “
In 2019,1 filed a lawsuit No. RG19002853 Drevaleva v. Alameda Health System
at the Superior Court of Alameda County. I propounded Amended Special Interrogatories
to AHS. On May 09, 2019, I received “RESPONDENT ALAMEDA HEALTH
SYSTEM’S

RESPONSES

TO

PETITIONER’S

INTERROGATORIES, SET ONE” (Exhibit 17),
“SPECIAL INTERROGATORY NO. 1:

Page 7 of 16

AMENDED

SPECIAL

“What Did Mr. Harding Say to Ms. Daly in December 2013 About the Reasons of
Terminating Ms. Drevaleva’s Employment?”
RESPONSE TO INTERROGATORY NO. 1:
Respondent objects to this interrogatory on the grounds that it is not relevant to the
subject matter involved in the pending action and therefore not reasonably calculated to
lead to the discovery of admissible evidence. (Code Civ. Proc., §§ 2017.010, 2030.010
subd. (a); Kalaba v. Gray (2002) 95 Cal.App.4th 1416, 1417; Columbia Broadcasting
System, Inc. v. Superior Court of Los Angeles County (1968) 263 Cal.App.2d 12,18.)
Respondent objects to this interrogatory on the grounds that it seeks information
regarding the state of mind of another person.
SPECIAL INTERROGATORY NO. 2:
“What Did Mr. Cole Say to Ms. Daly in December 2013 About the Reasons of
Terminating Ms. Drevaleva’s Employment?”
RESPONSE TO INTERROGATORY NO. 2:
Respondent objects to this interrogatory on the grounds that it is not relevant to the
subject matter involved in the pending action and therefore not reasonably calculated to
lead to the discovery of admissible evidence. (Code Civ. Proc., §§ 2017.010, 2030.010
subd. (a); Kalaba v. Gray (2002) 95 Cal.App.4th 1416, 1417; Columbia Broadcasting
System, Inc. v. Superior Court of Los Angeles County (1968) 263 Cal.App.2d 12,18.)

Page 8 of 16

Respondent objects to this interrogatory on the grounds that it seeks information
regarding the state of mind of another person.
SPECIAL INTERROGATORY NO. 3:
“Is it True that on September 04, 2013 Ms. Dana Littlepage Sent an Email that
Proposed to Release Ms. Tatyana Drevaleva from Probationary Employment to Mr.
Harding, Mr. Cole, and Mr. Scafaro?”
RESPONSE TO INTERROGATORY NO. 3:
Respondent objects to this interrogatory on the grounds that it is not relevant to the
subject matter involved in the pending action and therefore not reasonably calculated to
lead to the discovery of admissible evidence. (Code Civ. Proc., §§ 2017.010, 2030.010
subd. (a); Kalaba v. Gray (2002) 95 Cal.App.4th 1416, 1417; Columbia Broadcasting
System, Inc. v. Superior Court of Los Angeles County (1968) 263 Cal.App.2d 12,18.)
Respondent objects to this interrogatory on the grounds that it seeks information
regarding the state of mind of another person. Respondent objects to this request on the
grounds that it is compound.
SPECIAL INTERROGATORY NO. 4:
“Did Ms. Littlepage Follow the Internal Policies of Alameda Health System When
She Proposed to Terminate Ms. Drevaleva’s Employment in Her September 04, 2013
Email to Mr. Harding, Mr. Cole, and Mr. Scafaro?”

Page 9 of 16

RESPONSE TO INTERROGATORY NO. 4:
Respondent objects to this interrogatory on the grounds that it is not relevant to the
subject matter involved in the pending action and therefore not reasonably calculated to
lead to the discovery of admissible evidence. (Code Civ. Proc, §§ 2017.010, 2030.010
subd. (a); Kalaba v. Gray (2002) 95 Cal.App.4th 1416, 1417; Columbia Broadcasting
System, Inc. v. Superior Court of Los Angeles County (1968) 263 Cal.App.2d 12,18.)
Respondent objects to this interrogatory on the grounds that it seeks information
regarding the state of mind of another person.”
Also, on May 09, 2019 I received “RESPONDENT ALAMEDA HEALTH
SYSTEM’S RESPONSES TO PETITIONER’S SPECIAL INTERROGATORIES, SET
TWO” (Exhibit 18),
“SPECIAL INTERROGATORY NO. 1:
“Describe in detail “the Discrepancies Between Acceptable Employment
Standards and Those [Ms. Drevaleva] Exhibited During [her] Employment with [AHS.]”
RESPONSE TO INTERROGATORY NO. 1:
Respondent objects to this interrogatory on the grounds that it is not relevant to the
subject matter involved in the pending action and therefore not reasonably calculated to
lead to the discovery of admissible evidence. (Code Civ. Proc., §§ 2017.010, 2030.010
subd. (a); Kalaba v. Gray (2002) 95 Cal.App.4th 1416, 1417; Columbia Broadcasting

Page 10 of 16

System, Inc. v. Superior Court of Los Angeles County (1968) 263 Cal.App.2d 12,18.)
Respondent objects to this interrogatory on the grounds that it is vague and ambiguous.
SPECIAL INTERROGATORY NO. 2:
“Is it true that on December 02, 2013 Mr. Harding and Mr. Cole said to Ms. Daly
that Ms. Tatyana Drevaleva Had Been Fired for Medical Negligence Towards the
Patient?”
RESPONSE TO INTERROGATORY NO. 2:
Respondent objects to this interrogatory on the grounds that it is not relevant to the
subject matter involved in the pending action and therefore not reasonably calculated to
lead to the discovery of admissible evidence. (Code Civ. Proc., §§ 2017.010, 2030.010
subd. (a); Kalaba v. Gray (2002) 95 Cal.App.4th 1416, 1417; Columbia Broadcasting
System, Inc. v. Superior Court of Los Angeles County (1968) 263 Cal.App.2d 12,18.)
Respondent objects to this interrogatory on the grounds that it seeks information
regarding the state of mind of another person.
SPECIAL INTERROGATORY NO. 3:
“Is it true that on December 06, 2013 Mr. Cole Gave a Copy of Ms. Littlepage’s
September 04,2013 Email to Ms. Catherine Daly?”
RESPONSE TO INTERROGATORY NO. 3:

Page 11 of 16

Respondent objects to this interrogatory on the grounds that it is not relevant to the
subject matter involved in the pending action and therefore not reasonably calculated to
lead to the discovery of admissible evidence. (Code Civ. Proc., §§ 2017.010, 2030.010
subd. (a); Kalaba v. Gray (2002) 95 Cal.App.4th 1416, 1417; Columbia Broadcasting
System, Inc. v. Superior Court of Los Angeles County (1968) 263 Cal.App.2d 12,18.)
Respondent objects to this interrogatory on the grounds that it seeks information
regarding the state of mind of another person. Respondent objects to this request on the
grounds that it is compound.”
Also, during the litigation of my lawsuit No. RG19002853,1 propounded Requests
for Admission of two versions of the alleged Ms. Littlepage’s September 04, 2013 email
that I had received from DIR. On March 29, 2019, I received “DEFENDANT
ALAMEDA HEALTH SYSTEM’S RESPONSE TO PLAINTIFF’S REQUEST FOR
ADMISSIONS - GENUINENESS OF DOCUMENTS, SET ONE” (Exhibit 19),
“REQUEST FOR ADMISSION NO. 1:
The original of the following documents, copies of which are attached, is genuine:
Copy of the September 04, 2013 email from Ms. Dana Littlepage.
RESPONSE TO REQUEST FOR ADMISSION NO. 1:
AHS objects to this request on the grounds that this document was not obtained
from AHS and appears to have been altered, thus, AHS has no reasonable way of
verifying the genuineness of this document. On this basis, AHS DENIES this request.”
Page 12 of 16

Also, on March 29, 2019, I received “DEFENDANT ALAMEDA HEALTH
SYSTEM’S RESPONSE TO PLAINTIFF’S REQUEST FOR ADMISSIONS
GENUINENESS OF DOCUMENTS, SET TWO” (Exhibit 20),
“REQUEST FOR ADMISSION NO. 1:
The original of the following documents, copies of which are attached, is genuine:
Copy of the September 04, 2013 email from Ms. Dana Littlepage.
RESPONSE TO REQUEST FOR ADMISSION NO. I:
AHS objects to this request on the grounds that this document was not obtained
from AHS, thus, AHS has no reasonable way of verifying the genuineness of this
document. On this basis, AHS DENIES this request.”
Therefore, the pieces of evidence that I received from the Narayan Travelstead
Professional Law Corporation didn’t confirm all of the DIR’s allegations:
1) That on December 02, 2013 both Harding and Cole said to Daly that I had been
fired for medical negligence towards the patient
2) That on September 04, 2013 Littlepage sent her email to Harding, Cole, and
Scafaro where she proposed to release me from probation
3) That on December 06, 2013 Cole provided Daly with the copy of Littlepage’s
email
4) That both versions of the alleged September 04, 2013 email of Littlepage were
genuine.
Page 13 of 16

Therefore, because all of the DIR’s allegations that were listed in Declaration of
Deputy Daly in support of DIR’s anti-SLAPP Motion were not confirmed by the
Narayan Travelstead Professional Law Corporation, I am respectfully asking the U.S.
Supreme Court to grant my Petition for Rehearing and to remand my lawsuit No.
RG17881790 back to the Superior Court of Alameda County for a further proceeding.
I need to clear my good name from DIR’s Libel that I was fired from AHS for
committing medical negligence towards the patient.
The facts that I discovered after the Superior Court of Alameda County dismissed
my Complaint No. Rgl 7881790 Drevaleva v. Department of Industrial Relations clearly
demonstrated that all DIR’s allegations that the DIR listed during the litigation of my
lawsuit No RG17881790 were not confirmed by the Responses of the Narayan
Travelstead Professional Law Corporation to my Discovery requests.
Because the DIR’s anti-SLAPP Motion was based on a fabricated piece of
evidence (the alleged September 04, 2013 email of Ms. Littlepage), the DIR is not
entitled to the qualified or absolute immunity. The DIR’s anti-SLAPP Motion shall be
denied. The DIR’s allegations of the immunity under the various provisions of the
California Government Code shall be denied. I am entitled to an evidentiary name
clearing hearing that was never done for me. The DIR’s Demurrer shall be overruled.
Pursuant to Government Code Section 11370.5(a), the DIR has a mandatory obligation to
transfer my both retaliation and unlawful termination claim and my wage claim to the
Office of the Administrative Hearings of the Department of General Services.
Page 14 of 16

My lawsuit No. RG17881790 shall be stayed at the Superior Court of Alameda
County and shall be coordinated with my Federal lawsuit No. 3:16-cv-07414-LB
Drevaleva v. 1) Alameda Health System, 2) Department ofIndustrial Relations.

Conclusion.
The Petition for Rehearing should be granted.

I declare under the penalty of perjury and under the Federal laws and under the
laws of the State of California that all foregoing is true and correct. Executed at San
Francisco, CA on January 07, 2021.

Respectfully submitted,

s/ Tatyana Drevaleva
Petitioner-Appellant Pro Se
3015 Clement St., Apt. 204, San Francisco, CA, 94121
415-806-9864; tdrevaleva@gmail.com
Date: January 07, 2021.

Page 15 of 16

Additional material
from this filing is
available in the
Clerk's Office.

a

